UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-3715
Calvin Bernhardt
Petitioner - Appellant
v.
United States of America
Respondent - Appellee
Appeal from U.S. District Court for the District of North Dakota - Western
(1:20-cv-00113-DLH)
JUDGMENT
Before COLLOTON, WOLLMAN, and BENTON, Circuit Judges.
This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed.
April 15,2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 20-3715

Page: 1

Date Filed: 04/15/2021 Entry ID: 5025780

Case l:16-cr-00080-DLH Document 152 Filed 11/18/20 Page 1 of 14

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH DAKOTA
United States of America,
Plaintiff,
vs.
Calvin Bernhardt,
Defendant.
Calvin Bernhardt,
Petitioner,
vs.
United States of America,
Respondent.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

ORDER DENYING DEFENDANT’S
MOTION FOR HABEAS RELIEF

Case No. l:16-cr-00080

Case No. l:20-cv-00113

Before the Court is Defendant Calvin Bernhardt’s “Motion to Vacate under 28 U.S.C. § 2255"
and his “Motion to Expand the Record” filed on June 30, 2020. See Doc. Nos. 143 and 145. The
Government filed a response in opposition to the motion to vacate on August 21, 2020. See Doc. No.
148. A reply was filed on November 9,2020. See Doc. No. 151. For the reasons outlined below, the
motion to expand the record is granted and the motion for habeas corpus relief is denied.

I.

BACKGROUND
On March 21,2016, Bernhardt was charged in a two-count complaint with attempted production

of images depicting the sexual exploitation of minors in violation of 18 U.S.C. § 2251 and attempted
receipt of images depicting the sexual exploitation of minors in violation of 18 U.S.C. §§ 2252(a)(2).
See Doc. No. 1. On April 6, 2016, a four-count indictment was filed alleging one count of attempted

Case l:16-cr-00080-DLH Document 152 Filed 11/18/20 Page 2 of 14

sexual exploitation of a child in violation of 18 U.S.C. § 2251 (a) and 2251(e); one count of attempted
receipt of images depicting the sexual exploitation of children in violation of 18 U.S.C. §§ 2252(a)(2)
and 2252(b)( 1); one count of possession of counterfeit obligations of the United States in violation of
18 U.S.C. § 472; and one count of attempted tampering with a witness in violation of 18 U.S.C. §
1512(b)(3). See Doc. No. 25. A six-count superseding indictment was filed on June 1, 2016, adding
one count of attempted tampering with a witness in violation of 18 U.S.C. § 1512(b)(2) and one count
of attempted travel with intent to engage in illicit sexual conduct in violation of 18 U.S.C. §§ 2423(b)
and 2423(e). See Doc. No. 36.
After a four-day trial, Bernhardt was found guilty on October 28, 2016, on all six counts as
charged in the superseding indictment. See Doc. No. 66. On February 7, 2017, Bernhardt was
sentenced to 360 months imprisonment on count one and count six , which were concurrent with one
another. Bernhardt was sentenced to 240 months imprisonment on count two, count three, count four,
and count five, which were concurrent with one another, but consecutive to counts one and six. See
Doc. No. 89.
On February 7, 2017, Bernhard filed a notice of appeal, a motion to proceed in form pauperis,
and a motion for appointment of counsel. See Doc. No. 91. The Court granted the motion to proceed
in form paurperis and Bernhardt was appointed counsel to represent him on appeal. See Doc. Nos. 93
and 96. The Eighth Circuit Court of Appeals affirmed in part, vacated in part, and remanded to the
district court for further proceedings. See Doc No. 115. The Eighth Circuit Court of Appeals rejected
all of Bernhardt’s challenges to the convictions but one, concluding there was insufficient evidence to
support his conviction for attempted travel with intent to engage in illicit sexual conduct. Id On
remand, count six was dismissed upon order of the Eighth Circuit Court of Appeals and this Court
resentenced Bernhardt on January 22, 2019, to 360 months on count one and 240 months on each of
2

Case l:16-cr-00080-DLH Document 152 Filed 11/18/20 Page 3 of 14

counts two, three, four, and five. See Doc. No. 130. The sentences on counts two through five were
to run concurrent with one another and 120 months of each counts four and five were to run consecutive
to the sentence imposed on count one. Id
On January 22, 2019, Bernhardt filed a notice of appeal of the amended judgment. See Doc.
No. 133. The Court amended the judgment on February 26, 2019, to clarify the sentence imposed on
remand was 480 months in total. See Doc. No. 137. The Eighth Circuit Court of Appeals affirmed the
judgment on September 6, 2019. See Doc. No. 138.
On June 30, 2020, Bernhardt filed the instant motions to vacate, set aside, or correct sentence
pursuant to 28 U.S.C. § 2255 and expand the record. See Doc. Nos. 143 and 145. In his petition,
Bernhardt set forth two grounds to set aside the judgment: (1) the United States failed to disclose
favorable information in violation of the right to due process and (2) he was deprived of effective
assistance of trial counsel. See Doc. No. 143. On August 21, 2020, the Government filed a response
arguing that Bernhardt’s claims fail on the merits and that his petition should be summarily dismissed.
See Doc. No. 83. Bernhardt filed a reply on November 9, 2020. See Doc. No. 151.

II.

STANDARD OF REVIEW
“28 U.S.C. § 2255 provides a federal prisoner an avenue for relief if his ‘sentence was imposed

in violation of the Constitution or laws of the United States, or . . . was in excess of the maximum
authorized by law.”’ King v. United States, 595 F.3d 844, 852 (8th Cir. 2010) (quoting 28 U.S.C. §
2255(a)). This requires a showing of either constitutional or jurisdictional error, or a “fundamental
defect” resulting in a “complete miscarriage of justice.” Davis v. United States, 417 U.S. 333, 346
(1974); Hill v. United States, 368 U.S. 424,428 (1962). A 28 U.S.C. § 2255 motion is not a substitute
for a direct appeal, and is not the proper way to complain about simple trial errors. Anderson v. United
3

Case l:16-cr-00080-DLH Document 152 Filed 11/18/20 Page 4 of 14

States, 25 F.3d 704, 706 (8th Cir. 1994). A 28 U.S.C. § 2255 movant “must clear a significantly higher
hurdle than would exist on direct appeal.” United States v. Frady, 456 U.S. 152, 166 (1982). Section
2255 is “intended to afford federal prisoners a remedy identical in scope to federal habeas corpus.”
Davis, 417 U.S. at 343.
A prisoner is entitled to an evidentiary hearing on a Section 2255 motion unless the motion,
files, and records of the case conclusively show that the prisoner is not entitled to relief. 28 U.S.C. §
2255; Engelson v. United States. 86 F.3d 238, 240(1995). A Section 2255 motion “may be dismissed
without hearing if (1) movant’s allegation, accepted as true, would not entitle the petitioner to relief,
or (2) [the] allegations cannot be accepted as true because they are contradicted by the record, are
inherently incredible, or are conclusions rather than statements of fact.” See Winters v. United States,
716 F.3d 1098 (2013); see also, Holloway v. United States. 960 F.2d 1348, 1358 (8th Cir. 1992) (a
single, self-serving, self-contradicting statement is insufficient to render the motions, files and records
of the case inconclusive); Smith v. United States, 618 F.2d 507, 510 (8th Cir. 1980) (mere statement
of unsupported conclusions will not suffice to command a hearing).

III.

LEGAL DISCUSSION
Bernhardt alleges two grounds for vacating the judgment; (1) the United States failed to disclose

favorable information in violation of Bernhardt’s right to due process and (2) Bernhardt was deprived
of the effective assistance of counsel in preparation for and during his trial. See Doc. No. 143. The
Court addresses each ground in turn.

4

Case l:16-cr-00080-DLH Document 152 Filed 11/18/20 Page 5 of 14

A.

Claim of Failure to Disclose Favorable Information

In Bernhardt’s first ground to vacate the judgement, he alleges the Government “withheld
critical impeachment evidence against their star witness, Jean Oliver Boston.” See Doc. No. 144, p. 2.
Specifically, Bernhardt alleges that Jean Oliver Boston (“Boston”) was arrested for “pimping her 15year old daughter, but was granted use immunity to testify against Bernhardt at his trial - with the
intention of manipulating the jury into believing that Boston expected no benefit from her testimony.”
Id. The Government asserts it did not fail to disclose favorable information because Bernhardt admitted
the information about Boston was available to defense counsel and Bernhardt did not raise these claims
on direct appeal.

1. Bernhardt’s Brady claim is procedurally barred.
In its response, the Government asserts Bernhardt’s Brady claims are procedurally defaulted
because he failed to raise them on direct appeal. “Because habeas relief is an extraordinary remedy
which will not be allowed to do service for an appeal, significant barriers exist in the path of a petitioner
who seeks to raise an argument collaterally which he failed to raise on direct review.” United States
v. Moss, 252 F.3d 993,1001 (8th Cir. 2001) (internal citations omitted). However, where a defendant
has procedurally defaulted a claim by failing to raise it on direct review, the claim may be raised in
habeas only if the defendant can first demonstrate either (1) cause for the default and actual prejudice
or (2) actual innocence. Id See also Bousley v. United States. 523 U.S. 614, 621 (1998). Bernhardt
failed to raise any Brady claims on his previous appeals; therefore, Bernhardt’s claim is procedurally
barred. See Doc. Nos. 115 and 138.

5

Case l:16-cr-00080-DLH Document 152 Filed 11/18/20 Page 6 of 14

2. Notwithstanding the procedural bar, Bernhardt has failed to demonstrate any
Brady violation.
The Brady rule requires prosecutors to disclose materially exculpatory evidence in the
government’s possession to the defense. See Brady v. Maryland, 373 U.S. 83 (1963). Materially
exculpatory evidence includes any evidence favorable to the accused. Id at 87. The government must
disclose any evidence both favorable to an accused and material to guilt or to punishment. United States
v. Whitehill, 532 F.3d 746, 753 (8th Cir.2008) (internal citations omitted). The United States Supreme
Court has also determined that the government has an affirmative duty to “disclose matters that affect
the credibility of prosecution witnesses.” United States v. Morton, 412 F.3d 901, 906 (8th Cir.2005)
(citing Giglio v. United States. 405 U.S. 150 (1972)). The failure to disclose Giglio evidence requires
a new trial if the withheld information is deemed “material.” United States v. Garcia, 562 F.3d 947,952
n. 7 (8th Cir.2009) (citing United States v. Spinelli. 551 F ,3d 159, 164 (2nd Cir.2008)). The
materiality standard under either Brady or Giglio requires the defendant to show that there is a
reasonable probability that, had it been disclosed to the defense, the result of the proceedings would
have been different. Id. A reasonable probability of a different result is shown when the government's
failure to disclose “undermines confidence in the outcome ofthe trial.” Id at 953 (quoting Spinelli, 551
F.3d at 164—65). Whether the government had a duty to disclose the suppressed information under
Brady or Giglio is immaterial, as the requirements for establishing a violation under either theory appear
to be similar and the remedy is the same.
To succeed on a Brady claim, Bernhardt must establish (1) “the prosecution suppressed
evidence,” (2) “the evidence was favorable to him,” and (3) “the evidence was material to either his
guilt or his punishment.” See Mandacina v. United States, 328 F.3d 995,1001 (8th Cir. 2003) (quoting
United States v. Carman, 314 F.3d 321, 323-24 (8th Cir.2002)). Impeachment evidence, as well as

6

Case l:16-cr-00080-DLH Document 152 Filed 11/18/20 Page 7 of 14

exculpatory evidence, falls within the Brady rule, and it is subjected to the same materiality analysis.
United States v. Duke, 50 F.3d 571,577 (8th Cir. 1995). However, “the government does not suppress
evidence in violation ofBrady by failing to disclose evidence to which the defendant had access through
other channels.” United States v. Roy, 781 F.3d 416, 421 (8th Cir. 2015).
Bernhardt alleges the government may have knowingly offered perjured testimony from Boston,
namely that Boston contradicted herself about being arrested by Filipino authorities. See Doc. Nos.
144, pp. 9-10 and 145. Bernhardt contends that the government attempted to bolster Boston’s
credibility and manipulate the jury through the following testimony:
Q-

Now, has anybody from the Philippine government promised
you anything to come here and testify?

A.

What are they going to promise?

Q.

Anything about charges or anything criminal-wise in the
Phillippines?

A.

None.

Q-

Has anybody from the United States government done that,
promised you anything criminal-wise for testifying?

A.

None.

See Doc. Nos. 100, pp. 30-31 and 144, p. 8.
First, Bernhardt offers the following testimony on Boston’s cross examination to discredit her
testimony on direct examination:
Q.

When this investigation started or shortly after this investigation
started, Lxxxxxx was taken away from you, correct?

A.

Yes. Yes, sir.

Q.

And you were arrested by the Filipino authorities.

A.

No, sir.
7

Case l:16-cr-00080-DLH Document 152 Filed 11/18/20 Page 8 of 14

Q-

Did they tell you that they were investigating you for using your
child in a sex offense?

A.

No, sir.

Q-

What reason did they give you for taking your child from you?

A.

Because of Calvin.

Q.

Calvin is in the United States. You’re in the Philippines,
literally the other side of the globe, in Asia. And the Filipino
police or social services took your daughter from you.

A.

Yes, sir.

Q-

And they told you it was because of who you were.

A.

Excuse me, sir?

Q-

They told me because it was who you were.

A.

No, not that, sir.

Q-

You think that by coming here and testifying, that you’ll be
reunited with your daughter.

A.

Yes.

Q-

And you would say anything to accomplish that, wouldn’t you?

A.

No, sir, just what’s in me.

See Doc. Nos. 100, pp. 44-45 and 144, pp. 9-11. Second, Bernhardt contends Boston’s
testimony on direct examination is further contradicted by information known by Bernhardt’s trial
counsel, Guy Womack (“Womack”). See Doc. Nos. 144, p. 9 and 145.
Bernhardt has failed to demonstrate the government suppressed evidence. A prosecutor has “no
duty to disclose evidence that is 1) neutral, speculative or inculpatory, 2) available to the defense from
other sources, 3) not in the possession of the prosecutor, or 4) over which the prosecutor has no actual
or constructive control.” United States v. Flores-Mireles, 112F.3d337,340(8thCir. 1997). Bernhardt
8

Case l:16-cr-00080-DLH Document 152 Filed 11/18/20 Page 9 of 14

admitted that he and his defense counsel were aware a news article existed indicating Boston had been
arrested and charged with attempted sex trafficking of a minor. See Doc. Nos. 144, p. 9 and 18; and
145, p. 2. The above referenced portion of Boston’s cross examination indicate Womack knew of and
cross examined Boston on the subject of her alleged arrest in the Philippines. In addition, Bernhardt
offers no evidence that Boston was granted use immunity in her home country, other than his selfserving affidavit. However, Boston was approved to come to the United States to testify because of a
mutual legal assistance treaty, which is an agreement between the United States government and the
Philippine government. See Doc Nos. 99, p. 60; 148-1. As part of the treaty’s conditions, Boston was
provided a safe passage letter that provides she will not be prosecuted in the United States for anything
except perjury. Id The Court finds Bernhardt has failed to demonstrate the Government suppressed
evidence or offered perjured testimony.
Further, the alleged suppressed evidence was not material to Bernhardt’s guilt or his
punishment. At trial the Government offered a substantial amount of evidence indicating Bernhardt’s
guilt, including approximately 1.75 million pages of Bernhardt’s Facebook data, naked photographs of
female breasts and genitalia, and testimony from the victim. See Doc. Nos. 98, p. 107; 99, pp. 28-30;
100, pp. 46-62. The record shows the Court did not heighten Bernhardt’s sentence due to his conduct
with Boston:
MR. MORRISON:

One concern I have, which I feel is necessary for
me to put on the record, is that recently I
discovered a -1 think it’s the Philippine Times,
an article that came out in that paper a number
of months before trial indicating - well, the
allegation that the mom in this case was
involved in some way in trafficking or pimping
out her daughter or contributing in some way to
this crime, and that’s - that’s not to seek to
argue that Mr. Bernhardt is not culpable or that
he’s less culpable.
9

Case l:16-cr-00080-DLH Document 152 Filed 11/18/20 Page 10 of 14

And again, I don’t know what the truth of that
article is, but I feel it behooves me to put it on
the record that if Your Honor is basing his
sentence in part on the effect of Mr. Bernhardt’s
conduct on the mom, for purposes potentially of
appeal that - potentially for any future 2255
motion, I want to bring it to the Court’s
attention.
And I suppose to preserve the record, I will
lodge it as a formal objection to Your Honor’s
sentence to the extent that that sentence is based
on the effect of Mr. Bernhardt’s conduct on the
mom.
THE COURT:

Mr. Delorme?

MR. DELORME:

Brief response, Your Honor. The Court is well
aware of the communications that took place
between Mr. Bernhardt and the mother in this
particular matter. The Philippine government, I
believe, did look at charging the mother, if not
did charge the mother for those communications
that were involved and that were part of the trial
in this - in this particular case. The Court is well
aware of that.
I can indicate to the Court that the Philippine
government, based upon that, did take custody
of the victim in this particular matter. Custody
of that victim has never been returned to the
mother. She remains in the child protective
services of the Philippines. I believe she’s about
to turn 18 fairly soon and she’s about to
graduate from their high school system in the
very near future, so she’s never been returned to
her family based upon this case and the conduct
of the mother.
So the effect on the victim in this particular case
is real, and it remains in effect today as she has
never been able to even have contact with much
of her family.

10

Case l:16-cr-00080-DLH Document 152 Filed 11/18/20 Page 11 of 14

THE COURT:

All right. Well, so the record is clear, my
sentence was not based on the impact that this that Mr. Bernhardt’s conduct had on the mother.
I listened carefully to the testimony of every
witness that appeared at the trial, and certainly
every witness’s testimony has some impact on
this case and how I viewed this case and how I
viewed the appropriate sentence, but - I’ll leave
it at that.

See Doc. No. 136, pp. 21-22. The Court finds Bernhardt’s assertions are speculative at best,
and do not establish that the government suppressed evidence nor offered perjured testimony at trial.
Accordingly, the Court finds Bernhardt is not entitled to relief on these claims.

B.

Claim of Ineffectiveness of Trial Counsel

In his motion, Bernhardt also asserts he was deprived of effective assistance of counsel in
preparation for and during trial. The Government asserts Bernhardt has failed to satisfy his burden
under the Strickland test, requiring his claim to be dismissed.
The Sixth Amendment guarantees a criminal defendant the right to effective assistance of
counsel. To be eligible for habeas relief based on ineffective assistance of counsel, a defendant must
satisfy the two-part test announced in Strickland v. Washington, 466 U.S. 668, 687 (1984). First, a
defendant must establish that defense counsel’s representation was constitutionally deficient, which
requires a showing that counsel’s performance fell below an objective standard of reasonableness. Id
at 687-88. This requires showing that counsel made errors so serious that defense counsel was not
functioning as the ‘counsel’ guaranteed by the Sixth Amendment. Id at 687-88. In considering
whether this showing has been accomplished, “[jjudicial scrutiny of counsel’s performance must be
highly deferential.” Id at 689. If the underlying claim (i.e., the alleged deficient performance) would
have been rejected, defense counsel’s performance is not deficient. Carter v. Hopkins, 92 F.3d 666,671
11

Case l:16-cr-00080-DLH Document 152 Filed 11/18/20 Page 12 of 14

(8th Cir. 1996). Courts seek to “eliminate the distorting effects of hindsight” by examining defense
counsel’s performance from counsel’s perspective at the time of the alleged error. Id.
Second, it must be demonstrated that defense counsel’s performance prejudiced the defense.
Strickland, 466 U.S. at 687. In other words, under this second prong, it must be proven that “there is
a reasonable probability that, but for counsel ’ s unprofessional errors, the result ofthe proceedings would
have been different.” Id at 694. A reasonable probability is one “sufficient to undermine confidence
in the outcome.” Wiggins v. Smith, 539 U.S. 510, 534 (2003). An increased prison term may
constitute prejudice under the Strickland standard. Glover v. United States, 531 U.S. 198,203 (2001).
There is a strong presumption that defense counsel provided “adequate assistance and made all
significant decisions in the exercise of reasonable professional judgment.” Strickland, 466 U.S. at 690;
Vogt v. United States. 88 F.3d 587, 592 (8th Cir. 1996). A court reviewing defense counsel’s
performance must make every effort to eliminate hindsight and second-guessing. Strickland, 466 U.S.
at 689; Schumacher v. Hopkins. 83 F.3d 1034,1036-37 (8th Cir. 1996). Under the Strickland standard,
strategic decisions that are made after a thorough investigation of both the law and facts regarding
plausible options are virtually unchallengeable. Strickland, 466 U.S. at 690.
When the defendant asserts that there are multiple deficiencies, each claim is reviewed
independently. Middleton v. Roper, 455 F.3d 838,851 (8th Cir. 2006). There is no “cumulative error”
rule applied to assistance of counsel claims. United States v. Robinson, 301 F.3d 923,925 n.3 (8th Cir.
2002).

Courts generally entrust cross-examination techniques, like other matters oftrial strategy, to the
professional discretion of counsel. United States v. Orr, 636 F.3d 944, 952 (8th Cir. 2011) (internal
citations omitted). A failure to impeach constitutes ineffective assistance when there is a reasonable
probability that, absent counsel's failure, the jury would have had reasonable doubt of the petitioner's
12

Case l:16-cr-00080-DLH Document 152 Filed 11/18/20 Page 13 of 14

guilt. Id It is very difficult to show the trial outcome would have been different had specific questions
been asked on cross examination,’ particularly where other trial testimony repeatedly corroborated the
[challenged] testimony. Id at 953.
Bernhardt contends his defense counsel failed to prepare an adequate defense. Within his claim,
Bernhardt repeats his assertion that defense counsel did not investigate prior to trial and failed to utilize
available evidence to effectively cross examine Boston. The Government asserts Womack conducted
a reasonable investigation and effectively cross examined Boston.
Bernhardt’s assertions are contrary to the record. The record reflects that defense counsel
sought reconsideration of the order of detention pending trial and filed a motion for speedy trial. See
Doc. Nos. 33, 34, and 42. Womack filed 16 pages of voir dire questions, motioned for a directed
verdict after the government’s case in chief, and objected to the proposed final jury instructions. See
Doc. Nos. 54; 100, pp. 63-71 and 77-83. Womack also cross examined Boston regarding her alleged
arrest by the Philippine government. Bernhardt has failed to point to evidence his counsel should have
found. Further, Bernhardt provided no evidence to support his claim that defense counsel failed to
prepare a defense. Bernhardt has provided only conclusory, self-serving statements. Vague and
factually unsubstantiated assertions are insufficient to satisfy a defendant’s burden to establish by a
preponderance of the evidence that his counsel’s performance violated his rights. See United States
v. Sparks, 191 F. Supp 3d 120, 128 (D. D.C. 2016). Accordingly, Bernhardt is not entitled to relief
on this claim.
The Court has reviewed the record for instances of prosecutorial misconduct that would
individually or collectively require a reversal of the conviction and finds none. Further, even if the
Court were to assume the prosecution committed misconduct or defense counsel was ineffective, there

13

t V

Case l:16-cr-00080-DLH Document 152 Filed 11/18/20 Page 14 of 14

ft

is no prejudice nor basis in the record to reverse the conviction considering the overwhelming evidence
of guilt presented at trial.

IV.

CONCLUSION
The Court has carefully reviewed the entire record, the parties’ filings, and the relevant case

law. For the reasons set forth above, Bernhardt’s motion to expand the record (Doc. No. 145) is
GRANTED and his motion to vacate, set aside, or correct a sentence pursuant to 28 U.S.C. § 2255
(Doc. No. 143) is DENIED. The Court also issues the following ORDER:

1)

The Court certifies that an appeal from the denial of this motion may not be taken in
forma pauperis because such a appeal would be frivolous and cannot be taken in good
faith. Coppedge v. United States, 369 U.S. 438, 444-45 (1962).

2)

Based upon the entire record before the Court, dismissal of the motion is not
debatable, reasonably subject to a different outcome on appeal, or otherwise deserving
of further proceedings. Therefore, a certificate of appealability will not be issued by
this Court. Barefoot v. Estelle, 463 U.S. 880, 893 n.4 (1983). If the defendant desires
further review of his motion he may request the issuance of a certificate of
appealability by a circuit judge with the Eighth Circuit Court of Appeals.

IT IS SO ORDERED.
Dated this 18th day of November, 2020.
Is/ Daniel L. Hovland
Daniel L. Hovland, District Judge
United States District Court

14

